                     UNITED STATES RAILROAD RETIREMENT BOARD

                                OITICL OII"\SIIC 10K (í1NLKAI




September 21, 2010



The Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 N. Fairfax Drive, Room #9070
Arlington, VA 22226


System Review Report on the Federal Deposit Insurance Corporation Offce of Inspector
General Audit Organization

Dear Mr. Rymer:

Enclosed is the final System Review Report of the Federal Deposit Insurance Corporation Offce
of Inspector General audit organization conducted in accordance with Government Auditing
Standards and Council of the Inspectors General on Integrity and Efficiency guidelines. Your
response to the draft report is included as an enclosure with excerpts incorporated into the
relevant sections of the report

We agree with your proposed corrective action to the recommendations. We thank ¥ou and
your staff for the courtesies and cooperation extended to our audit team during the revie~e
give special acknowledgement to Allan Sherman, Nancy Cipolla and Eugene Szczenski for their
assistance and expertise provided throughout the review.



Sincerely,


Martin J. Dickman
Inspector General


Enclosure




844 N RUSH STREET CHICAGO IL 606 i 1-2092                            f'riiiicd ')11 rcc\ckd paper
                    UNITED STATES RAILROAD RETIREMENT BOARD

                              OFFICE OF INSPECTOR GENERAL




September 21, 2010


The Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 N. Fairfax Drive, Room #9070
Arlington, VA 22226

Dear Mr. Rymer:

We have reviewed the system of quality control for the audit organization of Federal
Deposit Insurance Corporation Offce of Inspector General (FDIC-OIG) in effect for the
year ended March 31, 2010. A system of quality control encompasses FDIC-OIG's
organizational structure and the policies adopted and procedures established to provide
it with reasonable assurance of conforming with Government Auditing Standards. The
elements of quality control are described in Government Auditing Standards. FDIC-OIG
is responsible for designing a system of quality control and complying with it to provide
FDIC-OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and FDIC-OIG's
compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Effciency (CIGIE). During our review, we interviewed FDIC-OIG personnel and
obtained an understanding of the nature of the FDIC-OIG audit organization, and design
of the FDIC-OIG's system of quality control suffcient to assess the risks implicit in its
audit function. Based on our assessments, we selected engagements and
administrative files to test for conformity with professional standards and compliance
with the FDIC-OIG's system of quality control. The engagements selected represented
a reasonable cross-section of the FDIC-OIG's audit organization, with emphasis on
higher-risk engagements. Prior to concluding the review, we reassessed the adequacy
of the scope of the peer review procedures and met with FDIC-OIG management to
discuss the results of our review. We believe that the procedures we performed provide
a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality control
for the FDIC-OIG's audit organization. In addition, we tested compliance with the FDIC-
OIG's quality control policies and procedures to the extent we considered appropriate

These tests covered the application of the FDIC-OIG's policies and procedures on
selected engagements. Our review was based on selected tests; therefore, it would not
necessarily detect all weaknesses in the system of quality control or all instances of
non-compliance with it.


844 N RUSH STREET CHICAGO IL 606 i 1-2092                               Printed on recycled paper
There are inherent limitations in the effectiveness of any system of quality control, and
therefore, non-compliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate.

Enclosure 1 to this report identifies the FDIC-OIG office that we visited and the
engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of FDIC-OIG in
effect for the year ended March 31, 2010, has been suitably designed and complied with
to provide FDIC-OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or faiL. FDIC-OIG has
received a peer review rating of pass. As is customary, we have issued a letter dated
September 21, 2010, that set forth findings that were not considered to be of sufficient
significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to FDIC-OIG's monitoring of
engagements performed by Independent Public Accountants (IPA) under contract where
the IPA served as the principal auditor. It should be noted that monitoring of
engagements performed by IPAs is not an audit and therefore is not subject to the
requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether FDIC-OIG had controls to ensure IPAs performed
contracted work in accordance with professional standards. However, our objective was
not to express an opinion and accordingly, we do not express an opinion, on
FDIC-OIG's monitoring of work performed by IPAs.


Sincerely,



Martin J. ~ickman
Inspector General


Enclosure




                                            2
Enclosure 1

                             SCOPE AND METHODOLOGY

Scope

We tested compliance with the FDIC-OIG audit organization's system of quality control
to the extent we considered appropriate. These test included a review of 8 of 51 audits
and attestation reports issued during the period April 1, 2009 through March 31, 2010
and semiannual reporting periods April 1, 2009 through September 30, 2009 and
October 1, 2009 through March 31, 2010. We also reviewed the internal quality control
reviews performed by FDIC-OIG.

In addition, we reviewed the FDIC-OIG's monitoring of engagements performed by IPAs
where the IPA served as the principal auditor for reports issued during the period
April 1, 2009, through March 31, 2010. During the period FDIC contracted with
Government Accountability Office (GAO) for the audit of its agency's calendar year 2009
financial statements. FDIC-OIG also contracted for certain other engagements that were
to be performed in accordance with Government Auditing Standards.

Methodology

The Council of the Inspectors General on Integrity and Efficiency (CIGIE) Guide for
Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
Inspector General (guide), dated March 2009, was used in the conduct of the review.
As set forth in the Guide, the approach to the review was to:

   •    Gain an understanding   of the reviewed OIG's audit organization and its system
        of quality control.

   •    Evaluate the reviewed OIG's policies and procedures designed to provide
        reasonable assurance that generally accepted government auditing standards
        (GAGAS) and other pertinent requirements are met.

   •    Interview various levels of the reviewed OIG's professional staff to assess their
        understanding of and compliance with relevant quality control policies and
        procedures.

   •    Gain an understanding of the reviewed OIG's internal quality control and
        assurance program and review selected internal reports.

   •    Assess review risk and select the office(s) and audits to be reviewed and the
        nature and extent of tests to perform by using the knowledge obtained from the
        preceding steps.

   •    Review a sample of individual audits and attestation engagements,    determining
        their adherence to GAGAS.




                                             3
Enclosure 1

   •   Gain an understanding as to the extent the reviewed OIG uses contracted IPAs
       to perform audits and attestation engagements as the principal auditor and the
       policies and procedures for monitoring IPA work.

   •   Review the FDIC-OIG's IPA monitoring documentation for a sample of
       contracted audits and attestation engagements, emphasizing the reviewed OIG's
       monitoring activities to ensure the IPA's adherence to professional standards.

   •   Review other documents necessary for assessing compliance with standards; for
       example, independence documentation, continuing professional education
       records and relevant human resource files. Access to professional education
       and human resource files will be in accordance with the Privacy Act and
       applicable FDIC or OIG guidance; such files will be properly safeguarded.

   •   Maintain open communication with the reviewed OIG to ensure an understanding
       of the issues evaluated and keep the reviewed OIG fully informed of potential
       issues as they arise.


We visited the Arlington, Virginia office of the FDIC-OIG during the period of
June 14-18, 2010, and reviewed the documentation for six engagements performed by
FDIC-OIG and two audits contracted by FDIC-OIG. Below are the engagements we
tested.



   AUD-                               FDIC's Brokered Deposit Waiver Application Process
  09-015
   AUD-          January 11, 2010     Verification of the FDIC's Data Submissions through
  10-003                              the Governmentwide Financial Report Systems as of
                                      Se tember 30, 2009
   AUD-        September 01, 2009     Material Loss Review of Silver Falls Bank, Silverton,
  09-023                              OR
   AUD-        September 04, 2009     Material Loss Review of Sherman County Bank, Loup
  09-026                              Cit ,NE
   MLR-           March 10,2010       Material Loss Review of First Coweta Bank, Newnan,
  10-023                              GA
   AUD-          August24,2009        Material Loss Review of Magnet Bank, Salt Lake City,
  09-021                              UT




   AUD-                              Independent Evaluation of the FDIC's Information
   10-001                            Securit Pro ram - 2009
    MLR-         March 25, 2010      Material Loss Review of InBank, Oak Forest, IL
   10-028




                                          4
                            UNITED STATES RAILROAD RETIREMENT BOARD

                                             OFFICE OF I SPECTOR GENERAL



September 21,2010


The Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 N. Fairfax Drive, Room #9070
Arlington, VA 22226

Dear Mr. Rymer:

The Railroad Retirement Board, Office of Inspector General (RRB-OIG) reviewed
the system of quality control and assurance for the audit organization of the
Federal Deposit Insurance Corporation, Office of Inspector General (FDIC-OIG)
in effect for the year ended March 31, 2010, and have issued our report thereon
dated September 21,2010, in which the FDIC-OIG received a rating of pass.
The report should be read in conjunction with the comments in this letter, which
were considered in determining our opinion. The findings described below are
not considered to be of sufficient significance to affect the opinion expressed in
that report.

GENERAL STANDARDS

Quality Control and Assurance:                          Monitoring of Quality
Finding 1.

FDIC-OIG's system of quality control could be enhanced by performing quality
control reviews of individual engagements to assess overall compliance with
professional standards, policies and procedures.

According to Government Auditing Standards, (GAS) each audit organization
performing audits or attestation engagements in accordance with generally
accepted government auditing standards must establish a system of quality
control that is designed to provide the audit organization with reasonable
assurance that the organization and its personnel comply with professional
standards and applicable legal and regulatory requirements.' Monitoring of
quality is an ongoing periodic assessment of work completed on audits and
attestation engagements designed to provide management of the audit
organization with reasonable assurance that the policies and procedures related




1   "Government   Auditing Standards",   GAO-07-731 G, paragraph 3.50 a, pages 55, July 2007 Revision


844 N RUSH STREET CHICAGO IL 606\\-2092                                                             Printed on recycled paper
to the system of quality control are suitably designed and operating effectively in
practice",

During the period under review, FDIC-OIG performed four Quality Control
Reviews (QCRs). Our assessment of these QCRs disclosed that FDIC-OIG
evaluated compliance with selected components of professional standards,
policies and procedures.

FDIC-OIG advised us that they performed unscheduled work paper reviews of
engagements performed by the Defense Contract Audit Agency (DCAA) and
multiple unscheduled quality control efforts. FDIC-OIG also advised us that in
their multi-year plan they included a review to assess overall compliance of
individual engagements but decided to defer the effort due to critical workload
issues and the need to perform unscheduled quality control related work. For
example, since FDIC-OIG was in the midst of performing statutorily required
material loss reviews using contractors, the agency decided to perform a quality
control review of contractor technical monitoring. FDIC-OIG stated that
collectively, their work constitutes continuing monitoring that provides assurance
regarding their system of quality control and has resulted in key improvements to
their processes.

Our review of individual reports disclosed findings related to documenting
independence and work paper review for all of the engagements reviewed.
Without a review of overall compliance with standards, policies and procedures,
reports that do not meet professional standards may go undetected.


Recommendation:

     1. FDIC-OIG should schedule and complete its planned quality control
        review of individual engagements for overall compliance with professional
        standards, policies and procedures.

FDIC-OIG's Response:

FDIC-OIG concurs with this recommendation and will complete a review of
individual engagements. They also plan to periodically schedule additional
reviews of individual engagements. The full text of FDIC-OIG's response is
provided as an enclosure.




2 "Government   Auditing Standards",   GAO-07-731G,   paragraph 3.53 f, page 56, July 2007 Revision


                                                             2
Independence:     Statement of Non-Conflict of Interest
Finding 2.

FDIC-OIG can strengthen compliance with Statement of Non-Conflict of Interest
requirements for all staff contributing to the audit process.

The FDIC-OIG procedures require auditors and non-audit personnel associated
with the engagement to sign a Statement of Non-Conflict of Interest, specific to
each engagement, in addition to being required to affirm to the Annual
Independence Representation e-rnail. These statements represent their
certification that they are free of personal impairments to independence or
impairments to external independence in fact and appearance.

A new procedure for the completion of the Statement of Non-Conflict of Interest
specific to each engagement was implemented in October 2009. This procedure
was used by the FDIC-OIG in one of the five material loss engagements included
in our review. The new procedure allows for the collection of lie-mail read
receipts" indicating that the e-mail recipient was notified of the names of financial
institutions involved in the engagement. By receipt of the e-mail, the recipient is
instructed to bring any conflict of interest issues to their supervisor.

The new procedure which requires an lie-mail read receipt" only provides
presumptive endorsement of independence, and not certification as required by
FDIC-OIG's policies and procedures.

In three of the five engagements, we observed that three team members who
had prepared work papers did not sign the Statement of Non-Conflict of Interest.
Additionally, we noted that there was no evidence that the FDIC-OIG obtained a
Statement of Non-Conflict of Interest from external auditors who were used in
the planning phase of one engagement.

The current procedure does not certify that auditors are free of personal
impairments to independence or impairments to external independence in both
fact and appearance.


Recommendations:

   2. FDIC-OIG should enhance the current procedure for obtaining
      independence representations via e-mail by using "Yes" and "No" voting
      buttons in place of read receipts.

   3. FDIC-OIG should re-emphasize existing requirements to obtain Statement
      of Non-Conflict of Interest certifications from staff contributing to
      engagements.


                                          3
FDIC-OIG's Response:

FDIC-OIG concurs with recommendation 2 and will issue updated procedures for
documenting independence representations on individual engagements using
Microsoft Outlook's voting button feature. The full text of FDIC-OIG's response
is provided as an enclosure.

FDIC-OIG concurs with recommendation 3 and will re-emphasize that
engagement-specific independence representations should be obtained and
documented from staff contributing to engagements before beginning work. The
full text of FDIC-OIG's response is provided as an enclosure.



Independence:     Annual Independence Representation
Finding 3.

Additional procedures are needed to ensure that all current employees
contributing to Office of Audit (OA) engagements complete an Annual
Independence Representation confirmation.

According to FDIC-OIG policies and procedures manual Chapter 300.2 3a
(March 2008), staff contributing to OA engagements will make an annual
representation that they understand the GAS Independence Standards and will
complete a Statement of Non-Conflict of Interest before performing work for each
review to which they are assigned. Further, staff completing a Statement of Non-
Conflict of Interest will notify his or her supervisor, the cognizant Director, and
the Assistant Inspector General for Audit in writing if any potential impairment
arises either before or during the conduct of an engagement.

FDIC-OIG procedures did not address newly hired employees and we noted that
confirmations were not obtained from four employees who started employment
or were reassigned to audit work after the January 2010 Annual Independence
Representation document was e-mailed to the staff.

Without the Annual Independence Representation, FDIC-OIG cannot ensure that
new and reassigned employees understand the standards, policies and
procedures relating to independence.


Recommendation:

   4. FDIC-OIG should develop procedures to obtain Annual Independence
      Representation confirmation from new employees and reassigned staff
      before they are assigned to audits.




                                        4
 FDIC-OIG's Response:

 FDIC-OIG concurs with this recommendation and will develop the recommended
 procedures. The full text of FDIC-OIG's response is provided as an enclosure.



 FIELD WORK STANDARDS

 Supervision:           Supervisory Reviews of Work Papers
 Finding 4.

 Improvements are needed to ensure the timely review of work papers.

 The FDIC-OIG has implemented a procedure for supervisory review to take
 place as the engagement progresses, generally within 30 days of work paper
 preparation, but always before final report issuance.

 Our review of six engagements disclosed that FDIC-OIG does not always adhere
 to the 30 day standard for supervisory reviews of work papers.

 Also some key work papers, such as analysis, summaries, indexing and
 referencing point sheets, were not reviewed prior to report issuance as reflected
 in the chart below:


                                      0~~~5II             II 0~~~1 II 0~~~311         0~~~6111~-~~3111~~~3                 I
                                        511
I~N=u=m=b=er=o=fw=o=rk=in=g=p=ap=e=rs===1I                "   403      "    166      " 300 II 277 "        95              I
  Number of working papers       II 13 Innl16lnoll15l~
I reviewed after report issuance     3
                                    (2.5%) ~~~~~
  Number of working papers not   112'16ln2l116l139ln71131
I reviewed within 30 days        I~~~~~~


 When the review of key work papers is delayed until after report issuance, there
 is a greater risk that errors that impact report integrity will not be identified and
 corrected.


 Recommendation:

     5. FDIC-OIG should ensure that the procedures for reviewing work papers
        prior to report issuance are followed.




 3 Work   papers reviewed after report issuance included analysis. summaries.   indexing and referencing   point sheets.


                                                              5
FDIC-GIG's Response:
FDIC-GIG concurs that additional attention to documenting work paper approvals
was necessary for final reports issued during the peer review period. They
stated that the 30-day timeframe was intended to be a goal for review, but not
necessarily for approval and not an absolute requirement. The full text of
FDIC-GIG's response is provided as an enclosure.


Sincerely,



Martin J. Dickman
Inspector General


Enclosure




                                      6
FOI
Federal Depoit Insurance Corpration
                                                                                Enclosure

351 Fairfax Drive, Arington. VA 2222                                            Ofce of Inspeor Geneal



  September 10, 2010




  The Honorable Marin 1. Dickman
  Inspector General
  U.S. Railroad Retirement Board
  844 N Rush Street
  Chicago, IL 60611-2092

  Dear Mr. Dickman:

  Than you for the opportunity to respond to the draft Letter of Comment prepared as par of
  the external quality control review of   the Federal Deposit Insurance Corpration's Inspector
  General audit organization. We recognize the peer review process as an importt facet of
  an audit organzation's quality control effort. We are pleased that your independent review
  of our audit operations resulted in a pass opinion and concluded that our system of quaity
  control was designed in accordance with the quality standards established by the
  Comptroller General of   the United States and was complied with to provide reasnable
  assurance of conforming to applicable Government Auditing Standards and Offce of Audits
  policies and procedures.

  The Letter of Comment contans recommendations that, while not affecting the overall
  opinion, are designed to strengten the Offce of Audit's system of quality control. We concur
  with the recommendations, and the enclosure provides our responses to each. Please extend
  our appreciation to the peer review team for their professionalism, insight, and valuable input
  to our audit function. If you have any questions, please call me at (703) 562-2166 or Russell
  A. Rau, Assistat Inspector General for Audits (AlGA), at (703) 562-6350.


  Sincerely,



Jon T. Rymer
  I nspector General



  Enclosure

  cc: Diana Krel, AlGA, Railroad Retirement Board
            Russell Rau, AlGA, Federal Deposit Insurance Corporation
                                                                                   ENCLOSURE


Railroad Retirement Board     (RRB) Recommendation 1: FDIC-OIG should schedule and
complete its planned quality control review of individual engagements for overall
compliance with professional standards, policies, and procedures.

Federal Deposit Insurance Corporation (FDIC) Office oflnspector General (OIG) Response:
We concur and will complete a review of individual engagements by February 28, 2011.
We also plan to periodically schedule additional reviews of individual engagements.

RRB Recommendation 2: FDIC-OIG should enhance the current procedure for obtaining
independence representations   via e-mail by using "Yes" and "No" voting buttons in place of
read receipts.

FDIC-OIG Response: We concur and will issue updated procedures for documenting
independence representations on individual engagements using Microsoft Outlook's voting
button feature. Corrective action will be completed by October 31,2010.

RRB Recommendation 3: FDIC-OIG should re-emphasize                 existing requirements to obtain
Statement of Non-Conflict   of Interest certification   from staff contributing to engagements.

FDIC-OIG Response:       We concur and will re-emphasize that engagement-specific
independence representations should be obtained and documented from staff contributing to
engagements before beginning work. After receiving the draft Letter of Comment, we
determined that the three OIG staff members identified by the peer review had made annual
independence representations.    Thus, in this case and as noted below, the two-tiered control
process outlined in our policies and procedures helped ensure that our staff made
independence representations.    Corrective action will be completed by October 31, 2010.

RRB Recommendation 4: FDIC-OIG should develop procedures to obtain Annual
Independence Representation confirmation from new employees and reassigned staff before
they are assigned to audits.

FDIC-OIG Response: We concur and will develop the recommended procedures by
October 31, 20 I O. After receiving the draft Letter of Comment, we obtained annual
independence representations from the four new or reassigned staff members identified by
the peer review and determined that each had made engagement-specific      independence
representations as part of our two-tiered control process for independence representations
outlined in our policies and procedures.

RRB Recommendation 5: FDIC-OIG should ensure that the procedures for reviewing
work papers prior to report issuance are followed.

FDIC-OIG Response: We concur that additional attention to documenting work paper
approvals was necessary for final reports issued during the peer review period. We identified
this matter in our Limited Review of TeamMate Assignment Documentation Status, dated
March 12,2010, and implemented corrective action. For example, procedures were
enhanced to focus on documenting approval of key work papers before final report issuance.
We also adopted a new quality control form as part of the final report certification process.
                                                                              ENCLOSURE


The form documents the Audit Manager's representation that all key work papers, including
coaching notes, have been reviewed and approved. The Audit Manager attaches to the form
a snapshot of the TeamMate file evidencing the review and approval status of work papers.
These controls are part of the quality control process for each engagement and, therefore,
help ensure that work papers are approved prior to report issuance. Concerning supervisory
review of electronic working papers as an engagement progresses, your letter correctly points
out that our policy is for the reviews to generally take place within 30 days. It was intended
that the 30-day timeframe be a goal for review but not necessarily approval and not be an
absolute requirement given the many demands on our audit managers. Based on your
analysis, about 80 percent of the work papers met the goal and that increases to over 88
percent if the oldest of the six engagements is not considered. The trend is clearly in the
right direction. Therefore, corrective action for this recommendation is considered complete.

Nonetheless, in addition to the implemented corrective action, we will monitor our progress
in this area. Our quality control reviews of individual engagements, discussed above in
response to Recommendation I, will review compliance with work paper review controls in
these two areas.




                                              2
